    "')/06       MON 14:28 FAX 423 241 3897               OIG                           ---   HQ                  1o001



,O F
   " 1325.8
(08-93)
United States Government                                              Department of Energy


memorandum
          DATE:     April 10, 2006                           Audit Report No.: OAS-L-06-11
    REPLY TO
     ATTN OF:       IG-32 (A05ID043)
    SUBJECT:        Audit of "Contract Transition Activities at the Idaho Operations Office"

           TO:      Manager, Idaho Operations Office

                    INTRODUCTION AND OBJECTIVE

                    The Department of Energy's Idaho Operations Office has ongoing missions focused
                    primarily in the areas of nuclear energy and environmental cleanup. From October 1,
                     1999 to February 1, 2005, Bechtel BWXT Idaho, LLC (Bechtel) managed facility
                    operations for both of these missions. In Fiscal Year 2005, two separate contracts began
                    in order to add focus and clarity to each respective mission. First, the Idaho National
                    Laboratory contract was awarded to Battelle Energy Alliance to manage the ongoing
                    nuclear energy operations under the direction of the Department's Office of Nuclear
                    Energy, Science and Technology. This contract also incorporated operations at
                                                                                                      the
                    Argonne National Laboratory-West facility, previously operated under contract
                                                                                                      with the
                    University of Chicago. The contract became effective on February 1, 2005. Second,
                                                                                                            the
                    Idaho Cleanup Project contract was awarded to CH2M-WG Idaho, LLC to
                                                                                                 manage
                    environmental cleanup work under direction of the Department's Office of
                                                                                                 Environmental
                    Management. This contract became effective on May 1, 2005.

                   With the change in. contractors came the need to transition many administrative
                   processes. These transition activities included transfenring management
                                                                                             authority for
                   human and physical resources from prior contractor organizations
                                                                                      to new contractors.
                   Also, site services such as transportation, emergency response, and
                                                                                        information systems
                   were assigned to the new contractors who have entered into agreements to provide
                                                                                                        these
                   services to each other. In consideration of these challenges, we conducted
                                                                                               this audit to
                   determine whether the contract transitions at the Idaho Operations
                                                                                      Office were effectively
                   managed.

                   CONCLUSIONS AND OBSERVATIONS

                   Except as noted below, nothing came to our attention during the audit
                                                                                         to indicate that the
                   transitions were not managed effectively. However, during the
                                                                                  audit, we noted a concern
                   with the effectiveness of transitioning ongoing audits managed by Bechtel.
v/.LA / v   muin       ±.q;o rtAA 42O 241 36V7              OIG                           -*-   HQ                 o002


                                                 Transition of Ongoing Internal Audits
                   We noted that Bechtel's resolution of questioned costs for
                                                                                two ongoing internal audits
                   that were in progress at the time of contract transition were
                                                                                  not clearly documented. At
                   the tune of contract transition, Bechtel internal auditors had
                                                                                   questioned $586,000 from
                   two ongoing audits. After contract transition, Bechtel management
                                                                                           determined that most
                   of the costs originally questioned in the two ongoing audits
                                                                                  were allowable. Specifically:
                   *     In the Draft 2003/2004 Relocation Audit, Bechtel auditors
                                                                                   originally identified more
                         than $440,000 in. questioned and unallowable costs. However,
                                                                                        the final report only
                         claimed approximately $11,000 as unallowable. The
                                                                             disposition of the other
                         $429,000 questioned costs was not explained in
                                                                        the workpapers.
                   *     The Draft FY 2004 Cost Allowability Report identified
                                                                               more than $146,000 in
                         questioned and unallowable costs. However, the final
                                                                              report reduced this amount to
                         $7,400 without an explanation in the workpapers.

                  This occurred, in palr, because the auditors who performed
                                                                                  the audit fieldwork and were
                  familiar with the audit results were transferred from Bcchtel
                                                                                   to Battelle Energy Alliance
                  during the transition and Bechtel had appointed a new staff
                                                                                  to complete the audits.
                  Although the original auditors were present during management's
                                                                                         review of the
                  qtucsion.ed costs, th.ey were not allowed to participate
                 to changing the reported costs bccause they were           in discussions  or decisions related
                                                                       no longer Bechtel employees.
                 Additionally, the new Bechtel auditors failed to document their
                 questioned costs. As a result, the Idaho Operations                  rationale for reducing the
                                                                         Office's contracting officer does not
                 have the necessary information to evaluate Bechtel's disposition
                                                                                       of costs. Accordingly,
                 we suggest that the Idaho Operations Office require Bechtel to reconstruct       its
                 determination of cost allowability for the audits addressed
                                                                                above and provide the results
                 to the contracting officer for a final determination.

               SCOPE AND METHIODOLOGY

              We conducted the audit from September 2005 to January 2006
              Laboratory and Department's Tdaho Operations                 at the Idaho National
                                                            Ofice in Idaho Falls, Idaho. It included a
              January 2006. To accomplish the objective, we:

              * Interviewed personnel at the Idaho Operations Office,
                                                                            Battelle Energy Alliance,
                 CH2M-WG Idaho, LLC, and Bechtel
                 and oversight;                          to discuss transition expectations,
                                                                                               challenges,
             * Reviewed the Department's contracts with Battelle
                                                                        Energy Alliance, CH2M-WG.
                 Idaho, and Bechtel witlh respect to transition activities;
             * Reviewed the Department's and contractors' transition
                                                                            plans to identify required
                activities and schedules;
             * Compared the con.tractors' trasition results
               SEvaluated the Department's strategy for         to the Department's required activities;
                                                           splitting site services between the
                contractors; and,
             *         Reviewed the Department's internal controls
                                                                   over activities affected by the transition.


                                                        2
uv/ .L/uo   MUIN    14: Z   fAA   423   241   3897       OIG                            -'•"- HQ                   @   003




                    The audit was performed in accordance with generally
                                                                               accepted Government auditing
                    standards for performance audits and included tests
                                                                           of internal controls and compliance
                    with laws and regulations to the extent necessary to satisfy
                   considered the establishment of performance measures            the audit objective. We
                                                                               as they relate to the audit
                   objective. We found no performance measures related
                                                                               specifically to the scope of this
                   audit. Because our review was limited, it would
                                                                      not necessarily have disclosed all
                   internal control deficiencies that may have existed
                                                                        at the time of our audit. Finally, we
                   did not assess the reliability of computer-processed
                   computer-processed data was used during the            data because only a limited anount of
                                                                   audit.
                   We coordinated this lettr report with officials fom
                                                                         the Idaho Operations Office
                   on January 30, 2006. Since no fonnal rccommendations
                                                                              arc being made in this
                   letter report, a formal response is not required. We
                   your staff tlhroughout the audit.                    appreciate  the cooperation of




                                                          redrick G. Pieper, Direcor
                                                         Energy, Science and Environmental
                                                           Audits Division
                                                         Office of Inspector General
               cc: Team Leader, Audit Liaison Team (CF-1.2)
                   Audit Liaison, Idaho Operations Office




                                                     3
